U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Seila Law LLC v. Consumer Financial Protection Bureau
S.CtNo. 19-7

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 28,
2019, and placed on the docket on June 28, 2019. The government's response is due on July 29,
2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 28, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0007
SEILA LAW LLC
CONSUMER FINANCIAL PROTECTION BUREAU

THOMAS H. BIENERT, JR.
BIENERT KATZMAN PC
903 CALLE AMANECER
SUITE 350
SAN CLEMENTE, CA 92673
OLIVER J. DUNFORD
PACIFIC LEGAL FOUNDATION
930 G STREET
SACRAMENTO, CA 95814
916-419-7111
CBAKARICH@PACIFICLEGAL.ORG
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG
RICHARD P. HUTCHISON
LANDMARK LEGAL FOUNDATION
THE RONALD REGAN LEGAL CENTER
3100 BROADWAY
SUITE 1210
KANSAS CITY, MO 64111
8 16-93 1-5559
PETE.HUTCH@LANDMARKLEGAL.ORG

NOAH R. MINK
BAKER, BOTTS LLP
THE WARNER
1299 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004-2400
202-639-7825
NOAH.MINK@BAKERBOTTS.COM
ANDREW J. PINCUS
MAYER, BROWN LLP
1999 K STREET, NW
WASHINGTON, DC 20006-1101
202-263-3220
APINCUS@MAYERBROWN.COM
KANNON K. SHANMUGAM
PAUL, WEISS, RIFK1ND, WHARTON &
GARRISON LLP
2001 K STREET, N.W.
WASHINGTON, DC 20006
202-223-7325
KSHANMUGAM@PAUL WEISS .COM
ILAN WURMAN
SANDRA DAY O'CONNOR COLLEGE OF LAW
ARIZONA STATE UNIVERSITY
111 E. TAYLOR STREET
PHOENIX, AZ 85004-4467
480-965-2245
ILAN.WURMAN@ASU.EDU

